           Audit Report



Payments to Individuals Whose
Numident Record Contained a
        Death Entry




     A-06-12-11291 | June 2013
MEMORANDUM


Date:      June 21, 2013                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)

           The attached final report presents the results of our audit. Our objective was to determine the
           appropriateness of benefits paid to individuals whose Numident record contained a date of death.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Payments to Individuals Whose Numident Record Contained a
Death Entry
A-06-12-11291
June 2013                                                                Office of Audit Report Summary

Objective                                Our Findings

To determine the appropriateness of      SSA paid 2,475 beneficiaries for months or even years after it
benefits paid to individuals whose       received notification they were deceased. SSA received death
Numident record contained a date of      reports for these beneficiaries and recorded dates of death on the
death.                                   Numident. However, SSA did not record the death information on
                                         the beneficiary’s payment record or terminate benefit payments.
Background
                                         Prior audit work has indicated a likelihood that some death entries
The Social Security Administration       on the Numident were erroneous, and beneficiaries were actually
(SSA) matches States’ death records      alive. However, we determined that 1,546 of the
against SSA payment records to           2,475 beneficiaries had death certificate information on the
identify and prevent erroneous           Numident. Prior audit work has also shown that death certificate
payments after death. In addition, SSA   information on the Numident was a reliable indicator that the
matches death records from other         individual was deceased. System interfaces designed to prevent or
Federal, State, and local public         detect payments to deceased beneficiaries failed in these instances.
assistance agencies.
                                         SSA improperly paid the 1,546 beneficiaries approximately
SSA uses its Death Alert, Control, and   $31 million. Further, SSA will make approximately $15 million in
Update System to receive and process     additional improper payments over the next 12 months if the
death information, terminate payments    discrepancies are not corrected.
when a beneficiary dies, and produce a
national record of death information,    Our Recommendations
known as the Death Master File.
During Calendar Year 2011, SSA           We recommend that SSA:
terminated benefit payments to more
than 2.1 million deceased individuals.   •   Verify the beneficiaries’ current status and take appropriate
                                             action to remove erroneous death entries or terminate benefits.
In May 2012, we identified               •   Evaluate the feasibility of a systems enhancement that would
2,475 numberholders who received             ensure death entries appearing on beneficiaries’ primary
about $2.4 million in monthly Old-           payment records are propagated onto their auxiliary payment
Age, Survivors and Disability                records.
Insurance benefits and/or
Supplemental Security Income             •   Implement a compensating control, until an effective systems
payments although the Numident               enhancement is implemented, to periodically identify and
indicated they had died in January           review instances where individuals with a death entry on the
2012 or earlier. Our review focused on       Numident continue to receive payments.
the appropriateness of continued
payments to these individuals.           SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................1
     Death Certificate Information Present on the Numident ...........................................................3
     Date of Death but No Death Certificate Information on the Numident .....................................4
     SSN Transposition Errors ..........................................................................................................4
     Controls Designed to Prevent Payment Errors Were Not Always Effective .............................4
Conclusions ......................................................................................................................................5
Recommendations ............................................................................................................................6
Agency Comments ...........................................................................................................................6
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Computation of Questioned Costs and Funds Put to Better Use ........................ B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)
ABBREVIATIONS
DACUS               Death Alert, Control, and Update System

DMF                 Death Master File

EDR                 Electronic Death Registration

OASDI               Old-Age, Survivors and Disability Insurance

OIG                 Office of the Inspector General

PII                 Personally Identifiable Information

SSA                 Social Security Administration

SSI                 Supplemental Security Income

SSN                 Social Security Number




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)
OBJECTIVE
Our objective was to determine the appropriateness of benefits paid to individuals whose
Numident record contained a date of death.

BACKGROUND
The Old-Age, Survivors and Disability Insurance (OASDI) program provides benefits to insured
individuals who have reached the minimum retirement age, dependents of insured wage earners
in the event the family wage earner dies, and disabled wage earners and their families. The
Supplemental Security Income (SSI) program provides payments to qualified individuals who
are 65 or older, blind, or disabled.

Section 205(r) of the Social Security Act effectively requires that the Social Security
Administration (SSA) match States' death records against SSA payment records to identify and
prevent erroneous payments to deceased beneficiaries. SSA’s Death Alert, Control, and Update
System (DACUS) matches reports of death received from Federal, State, and local agencies
against SSA’s Master Beneficiary (MBR) and Supplemental Security Records. DACUS also
processes death reports from internal sources (for example, the MBR). SSA records the death
information processed by DACUS on the Numident, an electronic file that contains personally
identifiable information (PII) for each individual issued a Social Security number (SSN). SSA
uses certain death information from the Numident to create a record of death information, known
as the Death Master File (DMF). However, prior audit work has indicated that, in some cases,
SSA erroneously continued paying benefits after receiving notification of a beneficiary’s death. 1

We identified 2,475 beneficiaries 2 who received about $2.4 million in OASDI benefits and/or
SSI payments in May 2012 although the Numident indicated they died in January 2012 or earlier.
Our review focused on the appropriateness of continued payments to these individuals. See
Appendix A for additional information on our scope and methodology.

RESULTS OF REVIEW
SSA issued payments to 2,475 beneficiaries for months and, in some cases, years after it received
notification they were deceased. SSA received death reports for these individuals and recorded
dates of death on the Numident. However, SSA did not record the death information on the
beneficiaries’ payment records or terminate their payments. This occurred because various




1
    SSA, OIG, Payments to Individuals Whose Numident Record Contains a Death Entry (A-06-08-18095), June 2009.
2
 This includes 2,172 OASDI beneficiaries, 271 SSI recipients, and 32 individuals receiving both OASDI and SSI
payments concurrently.




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)                           1
system controls designed to prevent or detect continued payments to deceased beneficiaries were
not effective in this small number of instances. 3

                               Figure 1: Individuals Receiving SSA Payments
                               Although Numident Contained a Death Entry

                                                                              Death Certificate
                                                                              Data not Present
                                                                               on Numident
                                                                               (879 Beneficiaries)

                     Death Certificate
                      Data Appeared
                       on Numident
                     (1,546 Beneficiaries)

                                                                        Case Involved SSN
                                                                              Error
                                                                          (50 Beneficiaries)

In 1,546 cases, the Numident death entry included the numberholder’s death certificate
information. Prior audit work indicated the presence of death certificate data on the Numident is
a reliable indicator that the numberholder is deceased. 4 We estimate that SSA improperly paid
the 1,546 beneficiaries approximately $31 million. Further, we estimate that SSA will make
approximately $15 million in additional improper payments over the next 12 months if it does
not correct the discrepancies. 5 We discuss our estimates in Appendix B.

In 879 cases, the Numident contained a date of death but did not include death certificate
information. Prior audit work has indicated that many of the 879 beneficiaries may actually be
alive, and that death entries recorded on the Numident may be erroneous. Action is required in
these cases to terminate improper payments or remove the erroneous death entries from the
Numident.




3
 Per Table 6.F2 in SSA’s Annual Statistical Supplement to the Social Security Bulletin, 2012, (released
February 2013), during Calendar Year 2011, SSA terminated more than 2.1 million payment records due to the
beneficiary’s death. The 2,475 payment records discussed in this report represent only about one-tenth of 1 percent
of the number of payment records that SSA terminates every year upon the death of the beneficiary.
4
    SSA, OIG, Payments to Individuals Whose Numident Record Contains a Death Entry (A-06-08-18095), June 2009.
5
 As of February 2013, 370 of the 1,546 beneficiaries were no longer in current payment status. Between May 2012
and February 2013, SSA terminated payments to 288 beneficiaries due to death, suspended payments to
75 beneficiaries, moved 3 beneficiaries into non-pay status, and removed 4 beneficiaries’ death entries from the
Numident. We did not include payments to the 4 beneficiaries whose death entries were removed in our
computation of improper payments through May 2012 and did not include payments to any of the 370 beneficiaries
when calculating improper payments over the next 12 months.




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)                                 2
In the remaining 50 cases, it appeared the beneficiaries’ payment records erroneously reflected a
deceased numberholder’s SSN. SSA will need to review each case to determine whether each
beneficiary is actually alive and whether the errors caused overpayments.

Death Certificate Information Present on the Numident
Numident death entries for 1,546 beneficiaries included not only a date of death but also death
certificate information. SSA continued issuing benefit payments to these beneficiaries for 2 to
237 months after recording the beneficiaries’ dates of death and death certificate information on
the Numident.

       Table 1: Average and Median Months and Amounts Paid After SSA Recorded
      Beneficiaries’ Date of Death and Death Certificate Information on the Numident.
                                          Number of Months            Amounts Paid
                          Average:              20                      $20,023
                          Median:               17                      $15,720

•   A beneficiary died in April 2000. In February 2001, SSA recorded the beneficiary’s date of
    death and New York death certificate number on the Numident. However, SSA did not
    record the death entry on the beneficiary’s payment record and continued issuing monthly
    benefit payments. From March 2001 through May 2012, SSA issued the beneficiary
    135 payments, totaling approximately $158,000. 6

•   A beneficiary died and SSA recorded the date of death and New York City death certificate
    number on the Numident, in March 2007. However, SSA did not record the death entry on
    the beneficiary’s payment record and continued issuing monthly benefit payments. From
    April 2007 through May 2012, SSA issued the beneficiary 62 payments, totaling
    approximately $113,000, and was still issuing the beneficiary $1,949 in monthly payments as
    of February 2013.

•   A beneficiary died in December 2009. In January 2010, SSA recorded the beneficiary’s date
    of death and Texas death certificate number on the Numident. However, SSA did not record
    the death entry on the beneficiary’s payment record and continued issuing monthly benefit
    payments. From January 2010 through May 2012, SSA issued the beneficiary 28 payments,
    totaling approximately $82,000, and had continued issuing the beneficiary $3,081 in monthly
    payments as of February 2013.




6
  In August 2012, SSA terminated these benefit payments and referred the case to our Office of Investigations. An
investigation revealed a family member had access to the deceased beneficiary’s bank account and converted
$160,101 in benefit payments for his own use.




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)                               3
SSA issued the beneficiaries approximately $31 million in improper payments through
May 2012, and we estimate SSA will make approximately $15 million in additional improper
payments over the next 12 months if it does not correct these discrepancies.

Date of Death but No Death Certificate Information on the Numident
Numident death entries for 879 beneficiaries identified a date of death but did not provide death
certificate information. SSA personnel input most of these death entries based on reports
received from a variety of sources. 7 We did not confirm whether any of the 879 beneficiaries
were actually deceased. However, we reviewed SSA records and performed public record
searches for 30 randomly selected beneficiaries and identified post-death activity indicating that
at least 10 of the individuals were alive. 8

If the beneficiaries were deceased, any payments issued after SSA received notification of their
deaths were improper. If the beneficiaries were alive, the addition of the erroneous death entry
could lead to benefit termination, cause severe financial hardship, and result in the public release
of their PII in the DMF. 9

SSN Transposition Errors
Numident death entries for 50 beneficiaries in current payment status indicated the beneficiaries
were deceased. However, in all 50 cases, it appeared the SSN on the beneficiary’s payment
record was not the beneficiary’s. All 50 cases require action to determine whether continued
benefit payments were appropriate and make necessary corrections to payment and/or Numident
records.

Controls Designed to Prevent Payment Errors Were Not Always Effective
SSA received verified Electronic Death Registration (EDR) reports 10 for 1,007 of the
2,475 beneficiaries. SSA should terminate benefit payments upon receipt of a verified EDR
report. However, it did not terminate these payments. In another 956 cases, SSA personnel
received the death reports and input the death entries on the Numident. SSA employees should
have determined whether the deceased individuals received benefit payments and taken action to



7
    Death report sources could include family members or funeral homes.
8
  Between May 2012 and February 2013, SSA removed three individuals’ death entries from the Numident. Public
record searches indicated that seven additional individuals registered vehicles, connected utilities, purchased
property, renewed a State identification card, or obtained a sports license after the date of death recorded on the
Numident.
9
 SSA, OIG, Personally Identifiable Information Made Available to the General Public Via the Death Master File
(A-06-08-18042), June 2008.
10
     States use EDR to submit death information to SSA.




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)                                 4
terminate the payments. However, SSA staff recorded the death entries on the Numident but did
not terminate the benefit payments.

In all 2,475 cases, once the death reports were processed, DACUS should have generated alerts
to notify the appropriate field office to take action and resolve the discrepancies. Field office
staff are required to give prompt attention to all DACUS alerts to minimize or prevent improper
payments and instructed to take appropriate action to clear alerts within 30 days. 11 However,
SSA Office of Systems staff informed us that DACUS issued alerts in only about 20 percent of
cases reviewed. 12

We also determined that 1,802 of the 2,475 cases involved auxiliary beneficiaries who received
benefit payments based on someone else’s earnings record. SSA payment records indicated that
in 1,061 of 1,802 cases, SSA systems recorded a death entry on the beneficiaries’ primary
payment records; but payments continued because SSA systems did not propagate the death
entries onto the auxiliary payment records. SSA was aware of a systems issue that prevented
Numident death entries from properly interfacing with auxiliary payment records but could not
explain why the various controls designed to prevent or detect payments to deceased
beneficiaries failed in other instances.

In addition, we found that SSA did not correct all discrepancies identified during our prior audit 13
or implement compensating controls to periodically identify and resolve these inconsistencies.

CONCLUSIONS
SSA continued issuing payments to 2,475 beneficiaries after it received notification they were
deceased and recorded their dates of death on the Numident. We estimate that at least 1,546 of
the 2,475 beneficiaries were actually deceased, and SSA paid approximately $31 million in
questionable benefits to these deceased beneficiaries. In addition, SSA will issue approximately
$15 million in additional improper payments over the next 12 months if these discrepancies are
not corrected. SSA should have taken action on all 2,475 of these cases by either stopping
payments if the beneficiary was deceased or correcting the Numident if the date of death was
incorrect. For the deceased beneficiaries, SSA needs to recover the overpaid benefits either
through reclaiming the funds in the deceased beneficiary’s bank account or by pursuing recovery


11
     SSA, POMS, GN 02602.065C.2 (September 26, 2012).
12
   We provided the Office of Systems with a data file identifying all 2,475 records in our audit population. SSA
staff reviewed all cases where SSA recorded the beneficiary’s date of death on the Numident during Calendar Year
2012 and determined that DACUS generated alerts in only 33 of 151 instances.
13
   As part of our audit Payments to Individuals Whose Numident Record Contains a Death Entry (A-06-08-18095),
in March 2009, we provided SSA Operations with a data file identifying 6,733 beneficiaries in current payment
status whose Numident record contained a date of death and recommended SSA take corrective action. The data file
included 91 beneficiaries in our current audit population. It appeared SSA did not correct these 91 records and the
beneficiaries remained in current payment status, at least through May 2012.




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)                              5
if the funds were fraudulently used by someone with access to the deceased beneficiary’s bank
account.

RECOMMENDATIONS
On April 15, 2013, we provided SSA’s Office of Operations with data identifying the
numberholders whose Numident record contained a date of death but whose payment record had
not been terminated due to death. We recommend that SSA:

1. Verify the beneficiaries’ current status and take appropriate action to remove erroneous death
   entries or terminate benefits. If applicable, SSA should also recover improper payments and
   refer potential instances of fraud to our Office of Investigations.

2. Evaluate the feasibility of a systems enhancement that would ensure death entries appearing
   on beneficiaries’ primary payment records are propagated onto their auxiliary payment
   records.

3. Implement a compensating control, until an effective systems enhancement is implemented,
   to periodically identify and review instances where individuals with a death entry on the
   Numident continue to receive payments.

AGENCY COMMENTS
SSA agreed with our recommendations. SSA stated that it has started implementing systems
enhancements to address the problems identified in this report. See Appendix C for the full text
of the Agency’s comments.




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)              6
                                      APPENDICES




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures related to
    death reports and erroneous deaths.

•   Reviewed Federal law and regulations relating to death matches with State agencies.

•   Identified 2,475 Old-Age, Survivors and Disability Insurance (OASDI) beneficiaries and/or
    Supplemental Security Income (SSI) recipients in current payment status as of May 2012
    while the Numident reflected a date of death of January 31, 2012 or earlier.

•   Reviewed the Master Beneficiary Record, Supplemental Security Record, and Numident for
    the 2,475 identified records in May 2012.

•   Identified the monthly benefit payments.

•   Identified the source of the death report.

•   Identified 1,546 beneficiaries/recipients in current pay status whose Numident death entry
    included death certificate information.

    o Reviewed the current payment records in January 2013 and determined whether SSA had
      taken subsequent action to confirm their living status.

    o Quantified improper benefits paid to the individuals through May 2012 and funds at risk
      for this group if the payment errors are not timely corrected.

We conducted our audit between June 2012 and February 2013 at SSA’s Regional Office in
Dallas, Texas. We determined the data used for this audit were sufficiently reliable to meet our
audit objective. The primary entity audited was the Office of the Deputy Commissioner for
Operations. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested the data obtained for our audit and
determined it was sufficiently reliable to meet our objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)            A-1
Appendix B – COMPUTATION OF QUESTIONED COSTS AND
             FUNDS PUT TO BETTER USE
We identified 2,475 beneficiaries receiving payments from the Social Security Administration
(SSA) in May 2012 despite having a date of death of January 2012 or earlier recorded on the
Numident. In 1,546 of 2,475 cases, the Numident death entry included the numberholders’ death
certificate information. Prior audit work indicated the presence of death certificate data on the
Numident is a reliable indicator that the numberholder is deceased. 1

As of February 2013, some 1,176 of the 1,546 beneficiaries remained in current payment status. 2
Our computation of questioned costs did not include payments to the 4 beneficiaries whose death
entries were removed (Table B–1), and our computation of funds put to better use did not include
payments to any of the 370 beneficiaries no longer in current payment status as of February 2013
(Table B–2).

    Table B–1: Questioned Costs – SSA Paid 1,542 Individuals Approximately $31 Million
         Through May 2012, After Recording Their Dates of Death on the Numident
                            Calendar Year                      Payments Issued
                            2008 or earlier                         $604,018
                                 2009                             $2,116,694
                                 2010                             $6,983,602
                                 2011                            $13,150,144
                          2012 (through May)                      $8,102,237
                                 Total                           $30,956,695

    Table B–2: Funds Put to Better Use - SSA Will Issue 1,176 Individuals Approximately
    $15 Million in Payments over the Next 12 Months if Discrepancies are Not Corrected.
                          Total SSA Payments               Estimated Amounts Paid
                              in May 2012                  over the Next 12 Months
                               $1,248,821                         $14,985,852




1
  Prior audit work indicated that SSA may have recorded erroneous death entries on the Numident for many of the
929 remaining beneficiaries and that these individuals may actually be alive. As a result, we excluded payments to
these beneficiaries when computing questioned costs and funds put to better use.
2
  Between May 2012 and February 2013, SSA terminated payments to 288 beneficiaries due to death, suspended
payments to 75 beneficiaries, moved 3 beneficiaries into non-pay status, and removed 4 beneficiaries’ death entries
from the Numident.




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)                           B-1
           Appendix C – AGENCY COMMENTS




                                          SOCIAL SECURITY

MEMORANDUM


Date:      June 11, 2013                                                               Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Payments to Individuals Whose Numident Record
           Contained a Death Entry” (A-06-12-11291)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)           C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"PAYMENTS TO INDIVIDUALS WHOSE NUMIDENT RECORDS CONTAINED A
DEATH ENTRY" (A-06-12-11291)

Recommendation 1

Verify the beneficiaries’ current status and take appropriate action to remove erroneous death
entries or terminate benefits. If applicable, SSA should also recover improper payments and
refer potential instances of fraud to our Office of Investigations.

Response

We agree. We implemented a systems enhancement to, on a monthly basis, identify individuals
who:

•   are in current pay status on the Master Beneficiary Record (MBR) and Supplemental
    Security Record (SSR),
•   do not have a death indicator on their payment records, and
•   do have a death entry on the Numident.

The records identified in this process will be sent to the Death Alert Tracking System (DATS)
for distribution to our field offices. We will investigate the alerts and attempt to reconcile the
data on the master files and add verified death data to the MBR and SSR. Where appropriate, we
will correct or remove incorrect Numident death entries and process termination actions. We
will also recover improper payments identified and refer potential instances of fraud to OIG’s
Office of Investigations.

On May 25, 2013, we initiated the first monthly systems run of this process, and the necessary
reconciliation and correction actions will begin in June.

Recommendation 2

Evaluate the feasibility of a systems enhancement that would ensure death entries appearing on
beneficiaries’ primary payment records are propagated onto their auxiliary payment records.

Response

We agree. We are making improvements to our death entry process. When we input a death
entry to the primary/number holder’s payment record, the Title II system updates the date of
death on the MBR for auxiliary records for that beneficiary. If we input a death entry on the
auxiliary record, the Title II system updates the date of death on the primary MBR. Provided
there is proper dual entitlement data on the record, the primary and auxiliary records both update
for that beneficiary.




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)            C-2
Recommendation 3

Implement a compensating control, until an effective systems enhancement is implemented, to
periodically identify and review instances where individuals with a death entry on the Numident
continue to receive payments.

Response

We agree. In our response to Recommendation 1, we discussed our systems enhancement.

For the longer term, to prevent future mismatches among the MBR, SSR, and Numident, we are
also redesigning our death processes. In fiscal years 2014 and 2015, we expect to release
improvements that will significantly enhance the quality and improve the processing of the death
data received electronically. The goals of this project are to:

•   improve accuracy and reduce improper payments,
•   reduce the erroneous release of Personally Identifiable Information,
•   ensure the consistency of death data across the agency’s Master Files (MBR, SSR, and
    Numident), and
•   provide new user interfaces for reporting purposes.




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)        C-3
Appendix D – MAJOR CONTRIBUTORS
Ron Gunia, Director, Dallas Audit Division

Neha Smith, Audit Manager

Clara Soto, Senior Auditor

Gonzalo Cagigal, Program Analyst

David McGhee, Senior Auditor

Lela Mitchell, Senior Auditor

Wanda Renteria, Senior Auditor

Warren Wasson, Senior Auditor

William Kearns, Information Technology Specialist




Payments to Individuals Whose Numident Record Contained a Death Entry (A-06-12-11291)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.

                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments

                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.

                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
